  COSTS IN SUPPORT OF THE KABUL
      AFGHANISTAN AIRPORT
INFRASTRUCTURE IMPROVEMENT AND
  CAPACITY BUILDING PROJECT ARE
      SUPPORTED AND VALID
      Federal Aviation Administration
        Report Number: FI-2011-073
         Date Issued: April 6, 2011
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Audit of the Kabul                                            Date:    April 6, 2011
           Afghanistan Airport Infrastructure and Capacity
           Building Project, FAA
           Report Number FI-2011-073


  From:    Earl C. Hedges                                                                   Reply to
                                                                                            Attn. of:   JA-20
           Acting Assistant Inspector General for Financial
            and Information Technology Audits

    To:    Acting Manager, Presidential Initiatives, FAA

           The U.S. Agency for International Development (USAID) supports long-term and
           equitable economic growth, and advances U.S. foreign policy objectives by
           supporting agriculture and trade, global health, democracy, and humanitarian
           assistance. This independent Federal Agency accomplishes its mission by
           working in close partnership with many entities, including foreign governments
           and other U.S. Government agencies.

           In March 2006, USAID entered into a memorandum of agreement (MOA) with
           the Federal Aviation Administration's (FAA) Office of International Aviation
           (API), and transferred $25 million to make infrastructure improvements at the
           Kabul Afghanistan International Airport (KAIA). The improvements were
           necessary, in part, to bring KAIA up to international standards, 1 and to improve
           airport security. In August 2006, API awarded $19.6 million to FAA's Logistics
           Center (AML) for services in support of the KAIA improvements. The MOA
           stipulated that FAA would request the Office of Inspector General (OIG) to
           perform periodic audits of the use of these funds.

           We reviewed costs associated with the work performed under agreement between
           API and AML to determine if they were supported and valid under the agreement's
           terms and conditions. We conducted this performance audit in accordance with
           generally accepted government auditing standards as prescribed by the

           1
               The International Civil Aviation Organization, the global forum for civil aviation, adopts standards and recommended
                practices for international aviation.
                                                                                                           2


Comptroller General of the United States, and included tests we considered
necessary to detect fraud, waste, and abuse. A detailed description of our scope
and methodology can be found in Exhibit A.

RESULTS IN BRIEF
Costs in support of the KAIA infrastructure improvement and capacity building
project were supported and valid. AML provided adequate documentation to
support 55 statistically selected cost line items (out of 1,470), and we found these
costs to be valid under the terms and conditions of API's agreement with AML.
We tested $11,292,200 (92 percent) out of a universe of $12,331,460, and found
no exceptions. Therefore, we estimate with 90 percent confidence that the
percentage of unsupported costs as of September 1, 2010 is between 0 and
3.2 percent, or between $0 and $399,470. We performed additional analyses on
$7,289,540 not expended as of that date, and found that AML could provide a
reasonable explanation of how these funds would be expended.

BACKGROUND
Decades of unrest and conflict have devastated Afghanistan's civil aviation
infrastructure, depleted its skilled aviation workforce, and severely diminished the
country's capacity to provide air navigation services, and regulatory and safety
oversight. At the request of Afghanistan's Ministry of Transport, and as directed
by the U.S. Secretary of Transportation, FAA developed a comprehensive plan to
help rebuild Afghanistan's national civil aviation system, including plans for
technical and managerial expertise to assist in the development, improvement, and
operation of the country's civil aviation infrastructure, standards, procedures,
policies, training, and equipment. FAA also agreed to train Afghan personnel,
inspect and calibrate existing equipment and air navigation facilities, and provide
resources, logistical support, and equipment. API's August 2006 agreement with
AML provided for the products and services needed to accomplish these
improvements at KAIA, including terminal surveillance equipment and
appropriate training, airport security equipment and services, control tower
refurbishment, and communications equipment. 2 API selected AML for its
available resources, including staffing, equipment, and the logistical capabilities
necessary to accomplish the objectives.

IMPROVEMENT COSTS AT KAIA ARE SUPPORTED AND VALID
We found that AML supported the statistically selected line item costs we tested,
and that the costs were valid under the terms and conditions of API's agreement

2
    Service Order Agreement Number: API-01-06-001-59002. API retained overall management and oversight of the
     project and required AML to provide scheduled project updates.
                                                                                                              3


with AML. Our review included 55 unique project cost items, with a value of
$11,292,200, or 92 percent of a universe of $12,331,460 expended on the project
as of September 1, 2010. We found no exceptions, and therefore estimate with
90 percent confidence that the percentage of unsupported costs as of
September 1, 2010 is between 0 and 3.2 percent, or between $0 and $399,470.
Project costs were applicable to one of four work elements attributable to the
reconstruction plan for KAIA, 3 and we found that AML applied project costs to
one of five categories—AML Agreements, Other, Materials, Labor Hours, and
Travel. We performed additional analyses on $7,289,540 not expended as of
September 1, 2010, and found that AML could provide reasonable explanations
for how these funds would be expended.


Project Costs Were Applicable to Five Categories
We found that the $12,331,460 expended on the project was distributed among
five specific cost categories. See Table 1.

        Table 1. KAIA Project Funds Expended by Category

                        Cost Category               Funds Expended as of
                                                    September 1, 2010 ($'s)

                          AML Agreements                10,032,275

                                       Other                943,320

                                   Materials                717,515

                               Labor Hours                  540,567

                                      Travel                 97,783

                                       Total            $12,331,460
                   Source: OIG

AML's agreement costs accounted for more than 81 percent of the funds
expended. The highest value agreement —$8,320,880 at the time of our review—
was with the Space and Naval Warfare (SPAWAR) 4 Systems Center, located in
North Charleston, South Carolina, for infrastructure and capability improvement
services to KAIA, and in particular, the installation of an approach control
surveillance system and the rehabilitation of KAIA's control tower and radio

3
  According to the Statement of Work accompanying the service order between API and AML, the following work
   elements apply: 1) Approach control surveillance system; 2) Training of Air Traffic Control professionals; 3)
   Rehabilitation of the control tower; and 4) Airport security manager/equipment/contract.
4
  SPAWAR is one of the Department of the Navy's three major acquisition commands.
                                                                                   4


equipment. In AML’s decision to select SPAWAR, the Center's experience in
providing support to the Department of Defense in underdeveloped countries with
potentially hostile environments, and expertise in installing similar systems in Iraq
and other areas of Afghanistan, were important attributes. Although we reviewed
costs associated with this agreement, we did not audit the award of this agreement
to SPAWAR.

AML also awarded $1.9 million to the U.S. Army Corps of Engineers for tasks
such as site preparation, and for the construction of a security building and
perimeter fencing. It awarded another $400,000 to the Transportation Security
Administration to identify deficiencies in KAIA's aviation security operations and
assist in the establishment of work plans to correct those deficiencies.

The "Other" cost category accounted for $943,320, or almost 8 percent of the
funds expended. A small portion of these costs were attributable to AML's
overhead and the project's administration, but the majority was for work
performed by FAA’s Training Academy, Airports and International Training
Division (AITD) under agreement with AML. An important component of the
KAIA reconstruction effort involved identifying and training Afghan candidates as
air traffic controllers and air traffic control system technicians. AITD primarily
provided the following services:

   • Assessments and training of personnel to control traffic from the aerodrome
     control tower, and for associated airport approach control;

   • Development and oversight of electronics and equipment-related training
     for equipment and systems deployed at KAIA; and

   • Oversight for on-the-job training of technicians tasked with maintaining
     equipment and deployed systems, and of air traffic controllers.

A significant portion of AITD's costs were directly related to instructors’ travel to
Afghanistan. AITD also brought Afghan students to the United States for
specialized training at the Mike Monroney Aeronautical Center in Oklahoma City,
Oklahoma.

Costs in the "Materials" category totaled $717,515, or less than 6 percent of the
funds expended. This category included costs for labor and materials associated
with the refurbishment and installation of an Airport Surveillance Radar 8 system,
and an Air Traffic Control Beacon Interrogator Model 5 system. FAA's Logistics
Center maintains and tracks parts for these systems which gradually have been
taken out of service in the U.S. in favor of newer and more advanced systems.
The Logistics Center can refurbish these systems and has identified a need for
                                                                                5


them on the international market. In discussions with FAA, we found that AML’s
ability to refurbish the systems led to its involvement in the KAIA Project.

The remaining $638,000 (approximately 5 percent) expended were AML labor
and travel costs, spent primarily to sustain the project's program management
component. The agreement between API and AML required AML to hold weekly
meetings and provide API with monthly project status reports comparing planned
milestones to actual accomplishments. It also required AML to conduct quarterly
program reviews at API's office in Washington D.C. AML’s project manager
traveled to Afghanistan to further assess project status.

Project Funds Not Yet Expended

We performed analyses on the $7,289,540 not expended as of September 1, 2010,
and found that AML could provide reasonable explanations for how these funds
would be expended. We found that at the time of our review, $4.9 million had
been obligated for expenditure, and $2.4 million were not obligated (see Table 2).

Table 2. KAIA Project Funding Status as of September 1, 2010
                                                    Percentage of
     Status of Funding        Dollar Amount
                                                   Available Funds

                 Expended       12,331,460               62.85

           Obligated, Not
                                 4,852,605               24.73
               Expended

       Not Obligated and
                                 2,436,935               12.42
           Not Expended

                    Total      $19,621,000              100.00%

   Source: OIG

Upon request, AML provided a cost schedule that identified how the remaining
funds would be used, outlined by cost category. AML also provided short
narratives describing in detail the KAIA infrastructure project element to which
the funds were obligated, and how unobligated funds would be used. For
example, obligated funding included the purchase of an Airport Fire Rescue
Vehicle, at a cost of $760,000. Funding for continued training for air traffic
controllers and equipment technicians was obligated at $700,000. AML also
anticipated that unobligated funds would be used to support the purchase and
                                                                                   6


installation of a communications switch at a cost of $1 million, to sustain and
complete on-the-job training for controllers and technicians ($600,000), and to
purchase flight data software ($33,000).

CONCLUSION
FAA's assistance in rebuilding KAIA is crucial to the overall economic recovery
and future growth of Afghanistan. The project provides an opportunity for FAA to
demonstrate its personnel's technical abilities and its available resources to assist
with other countries' aviation needs. At the same time, U.S. taxpayers demand
accountability for funding provided in support of projects such as the KAIA
improvements. Because AML had adequately supported KAIA's project costs as
of September 1, 2010, and reasonably explained how the remaining $7.3 million
would be applied, we are making no recommendations.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We discussed the results of this report with FAA officials on March 29, 2011 and
they agreed with our results.

We appreciate the courtesies and cooperation of AML representatives during this
audit. If you have any questions concerning this report, please contact Earl
Hedges, Acting Assistant Inspector General for Financial and Information
Technology Audits at (410) 962-1729.

                                         #

cc:    Martin Gertel, M-1
       Anthony Williams, AAE-001
       Shauna L. Martinez, AMQ-210
       Mark Jones, AML-025
                                                                                                                      7




EXHIBIT A. SCOPE AND METHODOLOGY
At the request of AML, 5 we conducted this audit on a reimbursable basis 6 from
September 2010 through March 2011, in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

Our objective for this audit was to determine if FAA's costs for the KAIA
improvements project were supported and valid under the terms and conditions of
API's agreement with AML. To address our audit objectives, we reviewed
applicable laws and regulations. We interviewed FAA personnel responsible for
the administration and oversight of the $19.6 million that API provided to AML in
support of infrastructure and capacity improvements at KAIA, service order
API-01-06-001-59002. We discussed program activities, policies and procedures,
and performed a walk-through of accounting functions and other applicable
management processes.

For testing purposes, we obtained a schedule of all costs incurred from AML on
the project as of September 1, 2010, a total of $12,331,460. We validated the
totals against total expenditures as of that date in the Department's accounting
system, DELPHI. Project costs were applicable to one of five cost categories—
AML Agreements, Other, Materials, Labor Hours, and Travel. In coordination
with OIG's senior statistician, we stratified the universe of 1,470 line items by
dollar amount and selected line items with probability proportional to size with
replacement from each stratum for a total sample size of 71. Because the sample
was selected with replacement, 10 line items were selected more than once for an
actual sample size of 55 at a value of $11,292,199.50.

We requested and reviewed documentation in support of these items. The
documentation included, but was not limited to, AML agreements, award
decisions, invoices, status reports, requisition records, cost schedules, vouchers,
and time cards. When necessary, we requested follow-up documentation, made
subsequent inquiries and held meetings for clarification and or explanation.

5
   Pursuant to Section 509(c) of Public Law 109-102, which appropriated funds for USAID and other purposes for
fiscal year 2006, any agreement for the transfer or allocation of funds appropriated by that Law, or prior Laws, entered
into between USAID and other Federal agencies under the authority of Section 632(a) of the Foreign Assistance Act of
1961 or any comparable provision of law, shall expressly provide that the Office of the Inspector General for the
agency receiving the transfer or allocation of such funds shall perform periodic program and financial audits of the use
of such funds.
6
  Intra-Agency Agreement DTFAAC-10-X-80006, August 2010.


Exhibit A. Scope and Methodology
                                                                              8


We also examined $7,289,540 not expended on the project as of
September 1, 2010. We reviewed a schedule detailing how these funds were
budgeted for expenditure. We reviewed associated cost narrative explanations for
reasonableness and validity in accordance with the KAIA infrastructure project
and API's agreement with AML.




Exhibit A. Scope and Methodology
                                                             9




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                   Title

Mark Rielly                            Project Manager

Brian Frist                            Senior Analyst

Allison Sturges                        Analyst

Petra Swartzlander                     Senior Statistician

Susan Neil                             Writer-Editor




Exhibit B. Major Contributors to This Report
